       Management Letter

    Related to the Audit of the 

 Broadcasting Board of Governors 

2010 and 2009 Financial Statements 



       AUD/IB-11-06, March 2011




          Clarke Leiper, PLLC
       Certified Public Accountants
          6265 Franconia Road
       Alexandria, Virginia 22310
                                             CLARKE LEIPER PLLC
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                6265 FRANCONIA ROAD
                                              ALEXANDRIA, VA 22310-2510
                                                     703-922-7622
                                                  FAX: 703-922-8256
DORA M. CLARKE
LESLIE A. LEIPER
                                              November 15, 2010

       To the Chief Financial Officer 

       Broadcasting Board of Governors: 

       We (Clarke Leiper, PLLC) have audited the consolidated financial statements of the
       Broadcasting Board of Governors (BBG) as of and for the years ended September 30, 2010 and
       2009, and have issued our report thereon dated November 15, 2010 (Independent Auditor’s
       Report on the Broadcasting Board of Governors 2010 and 2009 Financial Statements, AUD/IB­
       11-05). In planning and performing our audit of the BBG financial statements, we considered
       BBG’s internal control over financial reporting and compliance to determine our auditing
       procedures for the purpose of expressing an opinion on the financial statements and not to
       provide assurance on internal control. Accordingly, we do not express an opinion on the
       effectiveness of internal control related to financial reporting and compliance. We have not
       considered internal control since the date of our report.
       During our audit, we noted certain matters involving internal control over financial reporting and
       compliance that we considered to be significant deficiencies under the standards established by
       the American Institute of Certified Public Accountants. We reported those deficiencies in the
       report referenced.
       Our audit procedures were designed primarily to enable us to form an opinion on the financial
       statements and therefore may not identify all internal control weaknesses that may exist.
       However, we would like to take this opportunity to use the knowledge we gained during the
       audit of BBG to provide comments and suggestions that we hope will be useful.
       Although not considered to be significant deficiencies, we noted certain matters involving
       internal control and other operational matters that are presented in Appendix A for your
       consideration. These observations are intended to improve BBG’s internal control or result in
       other operating efficiencies.
       This letter is intended solely for the information and use of BBG officials and the Office of
       Inspector General and is not intended to be, and should not be, used by anyone other than these
       specified parties.

       Comments by BBG management on this report are presented as Appendix B.

       Very truly yours,




       Clarke Leiper, PLLC
                                                                                      Appendix A
                                                                                       Page 1 of 4


                                  Management Letter Related to the

                            Audit of the Broadcasting Board of Governors 

                                2010 and 2009 Financial Statements 


                                  Observations and Conclusions

  1.	 Government Purchase Cards

  Our tests of the controls over the Broadcasting Board of Governors (BBG) purchase card
  program identified the following exceptions:

      •	 The purchase logs of 18 of the 20 cardholders sampled had purchases with dates that did
         not match the dates on the credit card statements, purchases in seven of the 20
         cardholders’ logs were not in chronological order, and nine of the 20 cardholders’ logs
         did not include all purchases made.

      •	 Three cardholders’ purchase logs were not approved and signed by either the designated
         or the alternate Authorizing Officer/Certifying Officer (AO/CO).

      •	 One cardholder’s billing statement was not approved and signed by the designated 

         AO/CO. 


      •	 Sufficient documentation to support billing statements was not provided in a timely
         manner for two cardholders.

      •	 One cardholder exceeded the single purchase and 30-day spending limit for one month.

  These exceptions occurred because the controls over the purchase card program were not
  effective and program oversight was limited. A weak control environment over Government
  purchase cards increases the potential for unauthorized purchases.

  We recommend that BBG institute an effective internal control program for purchase cards and
  procedures to oversee the use of purchase cards.

  2. Information Security
(b)(2)(b)(5)
                                                                                          Appendix A
                                                                                           Page 2 of 4
(b)(2)(b)(5)




      3. Fund Balance With Treasury

      Our audit tests identified instances in which overseas collection and disbursement transactions
      were processed by the Department of the Treasury but were not recorded in Momentum, BBG’s
      financial system. These discrepancies occurred because of a Momentum system error that
      labeled certain transactions “No Load.” Upon reconciliation, BBG determined that these “No
      Load” files must be manually entered into Momentum. The manual entry of these transactions
      increases the risk of error and increases the work load for BBG staff.

      We recommend that BBG resolve the system error and ensure that Momentum appropriately
      processes all financial transactions.

      4. Accounts Receivable

      Our tests of accounts receivable identified one instance in which qualifying debts (180 days old)
      were not referred to the Treasury Offset Program (TOP) as required. As a result, BBG was not
      in compliance with the Debt Collection Improvement Act of 1996. Additionally, we were unable
      to obtain supporting documentation for one debt and therefore could not determine whether it
      had been referred to TOP. By not taking steps to comply with the law, BBG is not sufficiently
      pursuing delinquent debts owed the Government, which decreases the amount of funding
      available for other purposes.

      We recommend that BBG take appropriate measures to ensure full compliance with the Debt
      Collection Improvement Act of 1996.

      5. Foreign Service National Payroll

      Based on the results of our tests, we determined that BBG’s controls over payroll were
      substantially adequate and effective. However, we believe that the controls over Foreign Service
      National Payroll can be enhanced. The Department of State (Department) processes BBG’s
      Foreign Service National payroll and sends the information to BBG quarterly. We noted that
                                                                                                  Appendix A
                                                                                                   Page 3 of 4

BBG does not have a process in place to review the information received from the Department.

We recommend that BBG perform an internal review of Foreign Service National Payroll to
ensure the reasonableness and accuracy of the data reported.

                              Prior Year Management Letter Comments

During the audit of BBG’s 2009 financial statements, we identified matters that we reported in a
management letter.2 As a result of additional work performed during the audit of the 2010
financial statements, we did not include some of the prior observations in the current
management letter. Some of the observations identified during the 2009 audit remain open. The
status of the 2009 findings is presented in Table 1.

Table 1. Status of Observations From the FY 2009 Management Letter
     Observation                                                FY 2010
                             FY 2009 Observation                                      Comment
      Number                                                     Status

    1. Undelivered   A significant number of obligations were    Open     This issue was considered
       Orders        not supported or were no longer needed.              significant enough to include as a
                                                                          significant deficiency in the report
                                                                          on BBG’s 2010 and 2009 financial
                                                                          statements (AUD/IB-10-05).

    2. Government    Cardholders were not correctly entering     Open     See observation 1.
       Purchase      purchases in their purchase logs.
       Cards
                     Proper approvals were not obtained for
                     purchase logs and/or cardholder             Open     See observation 1.
                     individual statements of account.


    3. Grants        The grantees maintained cash on hand       Closed    The impact of this finding would
       Management    sufficient to cover expenses for from 1              be immaterial to the financial
                     month to more than 4½ months. Office                 statements, so alternative work was
                     of Management and Budget (OMB)                       performed on grants during the
                     Circular A-110 requires that cash                    audit.
                     advances “be limited to the minimum
                     amounts needed and be timed to be in
                     accordance with the actual, immediate
                     cash requirements.” *

                     We also noted an instance in which the     Closed
                     SF-272 for one grantee was not
                     submitted in a timely manner and in
                     accordance with OMB Circular A-110.




2
 Management Letter Related to the Audit of the Broadcasting Board of Governors 2009 and 2008 Financial
Statements (AUD/IB-10-19, March 2010).
                                                                                                   Appendix A 

                                                                                                    Page 4 of 4 


   Observation                                                  FY 2010
                             FY 2009 Observation                                        Comment
    Number                                                       Status

 4. Information     The annual Federal Information Security       Open      See observation 2.
     Security       Management Act report stated that
                    BBG did not fully comply with some
                    statutory provisions and implementing
                    regulations.


 5. Non-personnel   Prior year expenses were recorded in the     Closed     The impact of this finding would
    Expenses        current year.                                           be immaterial to the financial
                                                                            statements. BBG properly accrues
                                                                            for year-end expenses that will not
                                                                            be recorded until the following
                                                                            fiscal year.
 6. Accounts        Qualifying debts were not referred to the     Open      See observation 4.
    Receivable      Treasury Offset Program.


* OMB Circular A-110, Subpart A.22(b), Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals and Other Non-Profit Organizations (Nov. 19, 1993) (further amended
Sept. 30, 1999).
                                                                                                                     Appendix B 

                    BROADCAS11NG BOARD OF GOVERNORS                                                                  Page 1 of 5 

                    UNITED SThTES OF AMERICA


                                                 March 15,2011


Harold W. Geisel
Deputy Inspector General
Office of Inspector General
Department of State
Washington D.C. 20522-0308


Dear Mr. Geisel:

This is in response to your request for comments on the draft management letter related to the audi t of
the Broadcasting Board of Governors' 2010 and 2009 flnancial statements. We have reviewed the
observations and conclusions of the independent contractor, Clarke Leiper, PLLC, and in the attachment
provided detailed responses to each of the issues identified by the auditors.

I assure yOll that we take the recommendations seriously and will monitor the progress made to address
each recommendation.

Thank   yOll   for the opportunity to respond.


                                                     Sincerely,




                                                 Maryjean Buhler
                                                 Chief Financial Officer


Attachment:




cc:     Leslie A. Leiper, Clarke Leiper, PLLC
        MeJaJo Kubacki , Director, Financial Operations
        Margaret Grandstaff, Director, Budget Office




 3.'.0 INDEPENDENCE AVENUE. SW     ROOM 1655     OOHEN B( :II.I)I:"(;   l),i\SIIINGTO'J, OCWl.i7   (ZOZ) ZO.'...4f,I.'i   FAX (l02) 2O.i..4639
                                                                                                Appendix B 

                                                                                                Page 2 of 5 

                                       Broadcasting Board of Governors
                                        Audit of Financial Statements
                                         September 30,2010 and 2009


                          BBG Responses to the Audit Observations and Conclusions


1. Government Purchase Cards

Audit Recommendation:
We recommend that BBG institute effective internal control for purchase cards and procedures to oversee the
use of purchase cards.

BBG Response:
BBG is currently reviewing its business process for the Purchase Card Program to streamline processing and
strengthen controls. The BSG Purchase Card Manager will review selected Purchase Logs, ensuring the
appropriate Approving Officials have signed them and supporting documents are in compliance with the
guidance contained in the "Smart Pay" Purchase Card Program Guide and will maintain documentation of these
reviews. BBG will require all cardholders and approving officials to take the on-line GSA purchase card
training before July 2011 or their purchase card will be considered for suspension.


2. Infonnation Security

Audit Recommendation:
No fonnal recommendation, but BBG should address the recommendations made in the DIG report to ensure
that infonnation is appropriately protected.

BBG Response:
BBG has responded to all recommendations listed in the OIG's 2010 FISMA report and continues to improve
compliance with FISMA provisions and regulations. More specifically, the Chieflnformation Officer will
develop policies and procedures for certification and accreditation of all systems starting with the three systems
that are of highest priority and continue to develop security plans for the remaining lower priority information
systems.


3. Fund Balance With Treasury

Audit Recommendation:
We recommend that BBG resolve the system error and ensure that Momentum appropriately processes all
financial transactions.


BBG Response:
BBG has initiated a project to analyze overseas collection and disbursement transactions that did not load
properly from the interface. Because the BBG uses other sources to process its transactions, the use of
interfaces are essential to recording and reporting our financial data. The OCFO, Systems Branch, is in the
                                                                                                       Appendix B 

                                                                                                        Page 3 of 5 

process of reviewing our interfaces to identify areas for potential improvement and will continue to work with
our service providers to ensure data is properly posted in Momentum.


4. Accounts Receivable

Audit Recommendation:
We recommend that BBG take appropriate measures to ensure full compliance with the Debt Collection
Improvement Act of 1996.

BBG Response:
The OCFO, Office of Financial Operations has reviewed accounts receivable and ensured that debts are
appropriately referred to the Treasury Offset Program in order to be in full compliance with the Debt Collection
Improvement Act.

5. Foreign Service National Payroll

Audit Recommendation:
We recommend that BBG perform an internal review of Foreign Service National Payroll to ensure the
reasonableness and accuracy of the data reported.

BBG Response:
The OCFO, Office of Financial Operations has obtained access to the Department of State secured website in
order to pull FSN payroll reports each pay period. We are currently working with DOS personnel to schedule
training in order to gain knowledge of the different reports. We anticipate training to be completed in April
20 11 and we will begin reviewing the payroll files in 3" quarter FY 2011.


                                 Prior Year Management Letter Comments


Table 1 Status of Observations from the FY 2009 Management Letter
                                                FY
 Observation Number FY 2009 Observation
                                                      Clarke Leiper
                                               2010                                      BBG Response
                                                       Comments
                                              Status

     I. Undelivered     A significant number of Open        This issue was      The office of the Chief Financial
        Orders          obligations were not                considered          Officer (OCFO) perfonTIs
                        supported or were no                significant         reviews of all open orders and
                        longer needed.                      enough to           requests program offices to
                                                            include as a        reconcile their open orders. In
                                                            significant         FY 2010, the OCFO conducted a
                                                            deficiency in the   review of how to look up and
                                                            report on BBG's     clear open orders in Momentum.
                                                            20 I 0 and 2009     The next review will be
                                                            financial           conducted at mid-year, and the
                                                            statements          OCFO will continue to review
                                                            (AUDIIB-IO-05)      these open obligations and work
                                                                                with each Program Office to
                                                                                determine whether or not an
                                                                                obligation can be deobligated.
                                                                                               Appendix B 

                                                                                               Page 4 of 5 

                                               FY
                                                            Clarke Leiper
Observation Number    FY 2009 Observation     2010                                   BBG Response
                                                             Comments
                                              Status


   2. Government     Cardholders were not     Open     See observation      See response 1.
      Purchase       correctly entering                I.
      Cards          purchases in their
                     purchase logs.

                     Proper approvals were
                     not obtained for         Open                          See response I.
                     purchase logs and/or              See observation
                     cardholder individual             I.
                     statements of account.


   3. Grants         The grantees             Closed The impact of          Agree.
      Management     maintained cash on              this finding
                     hand sufficient to cover        would he
                     expenses for from 1             immaterial to the
                     month to more than 4 Yz         financial
                     months. Office of               statements, so
                     Management and                  alternative work
                     Budget (OMB) Circular           was perfonned
                     A-IIO requires that             on grants during
                     cash advances "be                 the audit.
                     limited to the minimum
                     amounts needed and be
                     timed to be in
                     accordance with the
                     actual, immediate cash
                     requirements."           Closed                        Agree.

                     We also noted an
                     instance in which the
                     SF-272 for one grantee
                     was not submined in a
                     timely manner and in
                     accordance with OMB
                     Circular A-I 10.

   4. Information    The annual Federal       Open     See observation      See response 2.
      Security       Information Security              2.
                     Management Act report
                     stated that BBG did not
                     fully comply with some
                     statutory provisions and
                     implementing
                     regulations.
                                                                                          Appendix B 

                                                                                          Page 5 of 5 


                                              FY
                                                       Clarke Leiper
Observation Number    FY 2009 Observation    2010                                BBG Response
                                                        Comments
                                             Status


   5. Non-           Prior Year Expenses     Closed The impact of       Agree.
      personnel      were recorded in the           this finding
      Expenses       current year.                  would be
                                                    immaterial to the
                                                    fmancial
                                                    statements.
                                                    BSG accrues for
                                                    year-end
                                                    expenses that
                                                    will not be
                                                    recorded until
                                                    the following
                                                    fiscal year.

                     Qualifying debts were   Open     See Observation   See response 4.
   6. Accounts
                     not referred to the              4.
      Receivable
                     Treasury Offset
                     Program.
